Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    HOSPITAL CLOSURE: 1991




              DECEMBER   1992
                     OFFICE OF INSPECr.OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is earned out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Semites, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of progr~ and management problems, and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Setices (OAS) provides all:auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                    AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


ATLANTA REGION                                                       HEADQuARm


Ron Kalil                                                            Cathaleen Ahern

Maureen Wke                                                          Linda Moscoe

Paula Bowker

Ruth Reiser


For additional copies of this report, please call the Atlanta Regional Office at (404)-331-4108.

Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENEML




     HOSPITAL CLOSURE: 1991




          DECEMBER   1992   OEI-04-92-00440
                 EXECUTIVE                            SUMMARY


PURPOSE

To describe the extent, characteristics   and impact of hospital closure in 1991.

BACKGROUND

The closure of hospitals in recent years has generated public and congressional concern.
According to a number of recent studies, more hospitals are expected to close in coming
years. Questions have been raised about thephenomenon       ofhospital closure, as well as
the implications for public policy.

We released a report in May 1989 describing the nationwide phenomenon of hospital
closure in 1987. We continued analysis of hospital closure to determine trends and
effects of the phenomenon.  We issued subsequent reports on 1988, 1989 and 1990
hospital closures.

The findings from the OIG 1987, 1988, 1989 and 1990 studies were similar. The
hospitals that closed were small and had low occupancy rates. When the hospitals
closed, few patients were affected. Most could get medical care nearby.

FINDINGS

Our inspection of hospital closures in 1991 produced findings similar to those previously
reported for 1987, 1988, 1989 and 1990.

b	     Fifty-seven general, acute care hospitals closed, one more than in the previous
       year. They were located in 27 States. Eight new hospitals opened, and 1 hospital
       that closed prior to 1991 reopened in 1991.

k	     Thirty-six of the closed hospitals were rural and 21 were urban. A higher
       percentage of rural hospitals (1.4 percent) closed in 1991 than did urban hospitals
       (0.8 percent).

F	      Closed hospitals in both rural and urban areas were much smaller than the
        national averages. Rural hospitals that closed had an average size of 32 beds
        compared to an average of 86 beds for all rural hospitals nationally. Urban
        hospitals that closed had an average size of 103 beds compared to an average of
        247 beds for all urban hospitals nationally.

 k	     Occupancy rates for closed rural and urban hospitals were lower than the national
        averages. Rural hospitals that closed hadanaverage    occupancy rate of23 percent
        compared to an average of 37.5 percent for all rural hospitals nationally. Urban



                                                  i
     hospitals that closed had an average occupancy rate of 36 percent compared to an
     average of 56.4 percent for all urban hospitals nationally.

b	   No significant differences existed in the average Medicare utilization between
     hospitals that closed and all hospitals nationally.

b	   In urban areas, the average Medicaid utilization among hospitals that closed was
     higher than the urban national average (17.4 percent vs. 11.7 percent). No
     significant differences existed in the average Medicaid utilization among rural
     hospitals that closed and all rural hospitals nationally.

F	   Although residents in a few communities had to travel greater distances for
     hospital care, most had emergency and inpatient medical care available within 20
     miles of a closed hospital.

�	   At the time of our inspection, 32 of the 57 closed hospital facilities (56 percent)
     were being used for health-related services. Also, plans were being made for
     using 10 of the remaining 25 vacant hospitals for health-related services.




                                              ii
                         TABLE                    OF CONTENTS


EXECUTIV-ESUMMARY                    ...........            ...*..”””””””””””””””””””””                            ““””””1
INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS


     Extent	 and Characteristics            of Closed Hospitals                . . . . . . . . . . . . . . . . . . . . . . . . 3


               How Many Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


               Where Were They . . . . . . . . . . . .. s. .ss””””                       ”.”- .””s s-”””           .“””””3


               How Many Opened                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


               What Were the Closed Hospitals Like . . . . . . . . . . . . . . . . . . . . . . . ...4


       Impact ofHospital          Closure       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


                How Many Patients Were Affected                        . . . . . . . . . . . . . . . . . . . . . . . . . . ..7


                Are Inpatient Care and Emergency

                 Services Available . . . . . . . . . . . ......................”...                                     . ..8


                What Is the Building Used For Now                         . . . . . . . . . . . . . . . . . . . . . . . . . ..9


       Follow-up Study           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...............l*

       Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”..................””.                                   10


mNO~              .....................................................                                                     .ll
 APPENDIXES

       Appendix A          Methodology            . . . . . . . . . . . . . . . . . . . ..................A-l

       Appendix B: Number of Hospital Closuresby                              State . . . . . . . . . . . . . . . . . . . B-1


       Append&C:           Number of Hospital Closuresby
                            Hospital Name and bcation.                         . . . . . . . . . . . . . . . . . . . . . ..C-l
                                   INTRODUCTION


PURPOSE

To describe the extent, characteristics         and impact of hospital closure in 1991.

BACISGRO~
                                                   acute care hospitals has generated public
In the past several years, the closure ofgeneral,
and congressional concern. According to a number of recent studies, more hospitals are
expected to close in coming years. Questions have been raised about the phenomenon of
hospital closure in the United States, as well as implications for public policY.

We released a report in May 1989 describing the extent, characteristics and impact of
                                                 That inspection showed that 69 hospitals
hospital closure in the United States in 1987.
closed in 1987. Many health policy officials in both the Executive and Legislative
Branches of the Federal Government who had been informed of the 1987 results
encouraged us to continue analysis of the phenomenon to detect differences in the rate
of hospital closure and in the characteristics and impact of hospitals that close.

 Similar inspections of the phenomenon of hospital closure in 1988, 1989 and 1990 showed
 that 88, 76 and 56 hospitals closed respectively.

                                         HOSPITAL             CLOSURE

                              #   OF      CLOSURES
                   1001




                    00
                                          69

                                                                                 56
                                                                          /           .
                     so




                     40




                     2C




                          [                                    1999           1990
                                       f1907
                                                        YEAR




                                                         1

The findings from the 1987, 1988, 1989 and 1990 inspections were similar. The hospitals
that closed were small and had low occupancy rates. When the hospitals closed, few
patients were affected. Most could get medical care nearby.

SCOPE

We examined hospitals that closed in calendar year 1991.

For purposes of this study, the following definitions were used.

Hospitak A facility that provides general, short-term, acute medical and surgical
inpatient services.

Closed Hospiti     One that stopped providing general, short-term, acute inpatient
services in 1991. If a hospital merged with or was sold to another hospital and the
physical plant closed for inpatient acute care, it was considered a closure. If a hospital
both closed and reopened in 1991, it was not considered a closure.

METHODOLOGY

To determine the extent and impact of hospital closure, we obtained information from
State licensing and certification agencies, State health planning agencies, State hospital
associations, HCFA data bases, officials associated with closed and nearby hospitals, and
local public officials.

We obtained information on the characteristics of all hospitals and those that closed in
1991 from the Hospital Cost Report Information System (HCRIS) maintained by HCFA.

Appendix A describes our methodology in further detail.




                                              2

                                  FINDINGS


The Inspector General’s study of hospitals closed in 1991 showed that:

b	    Fifty-seven general, acute care hospitals closedin    1991, Onemorethan      in the
      previous year.

F      Most hospitals that closed were small and had low occupanq         rates.

b      When a hospital closed, few patients were affected.

k	     Although residents of a few communities had to travel greater distances for
       hospital care, most had emergency and inpatient medical care available within 20
       miles of the closed hospital.


EXTENT AND CHARACI’ERISTICS             OF CLOSED HOSPITALS

How Many Closed

In 1991, there were more than 6,800 hospitals in the United States. Of those, 5,334 were
general, short-term, acute care hospitals entered on HCFA’S data base as participating in
the Medicare program. Fifty-seven (57) hospitals closed in 1991 -- about 1 percent of all
hospitals nationally. One more hospital closed in 1991 than in the previous year.



                         HOSPITALS IN THE U.S.:            5,334
                         CLOSED IN 1991:                      57 (1.1%)


When they closed, the general, acute care inpatient bed supply was reduced by 3,314
beds, or 0.4 percent.

 JWzereWere They

The closed hospitals were located in 27 States. Texas had the greatest       number of
closures (8), followed by Minnesota (6), California (5), Mississippi (5)    and Missouri (4).
These 5 States represented almost half (49 percent) of the closures in      1991. Seventeen
States had one closure each. Appendix B lists the number of hospital        closures by State.
Appendix C lists the closures by hospital name and location.




                                              3

Nationally, a higher percentage   of rural hospitals (1.4 percent) closed in 1991 than did
urban hospitals (0.8 percent).


                                              RURAL                 URBAN
            HOSPITALS IN THE U.S.:             2$509                 &725
            CLOSED IN 1991:                      36 (1.4%)             21 (0.8%)


How Many Opened

While 57 hospitals closed in 1991, 8 new general, acute care hospitals opened, adding 708
beds to the national supply of beds.                 “
In addition to the new openings during 1991, 1 hospital that closed prior to 1991
reopened in 1991, adding another 30 beds.

What   Were the Closed Hixpidr    Like

~      Hospitals that closed in 1991 were small. Almost two-thirds (65 percent) of the
hospitals that closed had fewer than 50 beds.



                             SIZE OF CLOSED HOSPITALS
       Number of Beds              Rural           Urban          Total         Percent
         O-29                       17               1              18             31.6
         30-49                      15               4              19             33.3
         50-99                       4               7              11             19.3
        100-199                      0               7              7              12.3
        200-299                      0               2              2               3.5
        300>                         0               0              0               0.0
           TOTALS                   36               21             57             100.0




                                               4
Both themral andurban hospitals that closedh 1991 were considerably smaller than the
average size of rural and urban general, acute care hospitals nationally.

                                          H~SPITALS
                                           .——                               THAT                CLOSED	
                                                                    WERE       SMALL	

                              s    of     Beds	
                3oo–	

                                                                                               246.5	

                250–	



                2oo–	



                150-	


                                                    86.1	
                 -loo–	



                   50-	



                        0-	
                                        RURAL               HOSPITALS                 URBAN           HOSPITALS	




                                    -National                        Avg    -Closed                   Hospital         Avg	




 occmancy Occupancy  . rates for closed rural and urban hospitals were lower than the
 national averages.l

                                  OCCUPANCY                                RATES               WERE                 LOW	


                 70%–	


                                                                                              564%	
                  60%–


                  50%–	


                                                  37.5%	
                  40%-	                     /                  A	




                  30%-	


                  20%-	


                   ?o%–	


                     cl% –	
                                         RURAL              HOSPITALS                 URBAN        HOSPITALS	



                                        _Nat!onal                    Avg    -Closed                HO    Splta     I A.g	




                                                                            5

Medicare Utilizatiorx Nonsignificant differences existed inthe average Medicare
utilization between hospitals that closed and all hospitals nationally.2


                                     MEDICARE                                 UTILIZATION	
                  tio%–	
                                             51.    E%	


                  5 cl%­	




                  40%–	




                  3D%–	




                  20%-	




                   *o%–	




                     cl%    –	
                                 RURAL              HOSPITALS                         URBAN   HOSPITALS	



                                 _Nutlonal                       Avg    ~Closed               Hosp,      tal   Avg	




Medicaid Utilization    In urban areas, the average Medicaid utilization among hospitals
that closed was higher than the urban national average (17.4 percent vs. 11.7 percent).
No significant differences existed in the average Medicaid utilization among rural
hospitals that closed and all rural hospitals nationally?

                                       MEDICAID                               UTILIZATION	
                    20%	


                    ~a%	


                    16%	


                    14%	
                                              11.8%
                                       /                  --’1
                    72%	


                    10%	


                      am	


                      6%	


                      4%	


                      2%	


                      o%	
                                     RURAL            HOSPITALS                       UREAN   HOSPITALS	



                                 _           Nat,     onal       Avg        =Closed           Hospital         Avg	




                                                                       6

IMPACI’ OF HOSPITAL CIXISURE

In communities where hospitals closed in 1991, we assessed the

b     number of patients affected by closure of hospitals,

b      availability of inpatient care and emergency medical services, and

b      current use of the closed hospital facility.

How Many Patients Wme Afleciixi

For rural hospitals that closed in 1991, the average daily census in the year prior to
closure was seven patients. The urban hospitals had an average daily census of 37
patients.



                          WHEN HOSPITALS CLOSED,

                     HOW MANY PATIENTS WERE AFFECTED?

                                                      Rural Hospitals    Urban Hospitals
    Average Number of Beds                                    32.0             102.9
    Average Occupancy Rate                               X    23.0%           X    36.O?ZO
    Average Number of Patients                                 7.4                 37.0


We analyzed Medicare utilization data to determine the number of elderly patients

affected by hospital closure in 1991. In rural hospitals that closed, four Medicare

patients were in the hospital on an average day in the year prior to closure. In the urban

hospitals that closed, there were 16 Medicare patients on an average day.




                       WHEN HOSPITALS CLOSED,

              HOW MANY MEDICARE PATIENTS WERE AFFECI’ED?

                                                      Rural Hospitals    Urban Hospitals
    Average Patient Census                                     7.4                 37.0
    Average Medicare Utilization Rate                     X   48.6%            X   42.9%
    Average Number Medicare Patients                           3.6                 25.9




                                                7

Are Inpatient Clue and Emeqyncy Services Avaihble

We assessed availability of inpatient and emergency medical care in miles from the
closed hospitals to the nearest inpatient and emergency facilities.

Irmatient Care: In most communities where a hospital closed in 1991, inpatient hospital
care was available nearby.

Rural: Residents in 23 of the 36 rural communities (64 percent) where a hospital closed
could get inpatient hospital care within 20 miles of the closed hospital. Residents of 4
rural communities had to travel more than 30 miles for inpatient hospital care.

Urban: Residents in 14 of the 21 urban communities (67 percent) where a hospital
closed could get inpatient hospital care within 3 miles of the closed hospital. The
remaining 7 communities are within 20 miles of an inpatient hospital.


                NEAREST        INPATIENT     CARE TO CLOSED HOSPITALS
                                                          NUMBER OF CLOSED
                                                              HOSPITALS

         DISTANCE                                        Rural           Urban
         Within 3 Miles                                  4 (11%)        14 (67%)

         4-10 miles                                      4 (11%)         3 (14%)

         11-20 Miles                                    15 (42%)         4 (19%)

         21-30 Miles                                     9 (25%)         o (o%)

         More than 30 Miles                              4 (11%)         o (o%)
                               Totals                   36 (100%)       21 (loo%)
     L


 Emer~encv Sexvices: When a hospital closed, the community lost not only inpatient beds,
 but also emergency services.

 Rural: In three-quarters (27 of 36) of the communities where rural hospitals closed,
 emergency care facilities were available within 20 miles of closed hospitals. Residents of
 2 communities had to travel more than 30 miles for emergency care.

 .       Goldwaith, Texas               32 miles
 �
         Mansfield, Missouri            45 miles

 Both communities have a physician, outpatient clinic and an ambulance sewice to
 transport residents to 24-hour emergency care facilities.



                                                   8

Urban: In~o-thtids     (140f21) of theurban co~utities      where a hospital closed,
emergency care facilities were within 3 miles from the closed hospital. The remahing    7
communities are within 15 miles of an emergency care facility.
                                                                                       11
            ~T            EMERGEN~      SERVIm        TO CLOSED HOSPI’I
                                                          NUM13ER OF CLOSED
                                                              HOSPIT~

                                                           Rural           Urban
         DISTANCE
                                                           9 (25%)         14 (67%)
         Within 3 Miles
                                                           4 (11%)          3 (14%)
         4-10 Miles
                                                           14 (39%)         4 (19%)
         11-20 Miles
                                                           7 (19%)          o (o%)
         21-30 Miles
                                                            2 (6%)          o (o%)
         More than 30 Miles
                                                           36 (100%)       21 (loo%)
                              Totals



 What    Is the Building Used For Now

  At the time of our review, 32 of the 57 closed hospital buildings (56 percent) were being
  used for health-related semices. For example:

  b	      Prairie Community Hospital in Terry, Montana was converted to a Medical
          Assistance Facility. It provides 24-hour emergency services, outpatient care and
          up to 4 days of inpatient care.

  �	      Enterprise Hospital in Enterprise, Alabama and Heron Lake Municipal Hospital
          in Heron Lake, Minnesota became nursing homes.

   F	      Yolo General Hospital in Woodland, California was converted to an outpatient
           and urgent care clinic.

   b	      St. Dominics Hospital in Jackson, Mississippi purchased Doctors Hospital located
           across the street. The Doctors Hospital facility closed for general acute care and
           currently offers chemical dependency services.

    b	     Martha Washington Hospital in Chicago, Illinois was purchased by nearby
           Ravenswood Hospital and converted to a mental health facility.




                                                 9

The following chart illustrates the use of all 57 hospital facilities after closure in 1991.

                               USE OF CLOSED HOSP~~

                                                  NUMBER      OF FORNfER HOSP~~*
                                                          Rural           Urban
               USE OF BUILD~G

     Specialty Treatment Facility                                                   2
                                                             o
     (e.g. chemical dependency)
                                                             o                       2
     Reopened     Hospital
                                                             11                      2
     Long Term Care Facility
                                                             12                      5
     Outpatient   Semites/Clinic
                                                             4                       1
     Offices
                                                             15                      10
      Vacant
                                                                                               d.
    *Duplicate count. In 5 of the 57 former hospitals more than 1 service is now offere



  At the time of our review, plans were being made to use 10 of the remaining 25 vacant
                                         For example, Southwest Dallas Hospital in Dallas,
  hospitals for health-related services.
                                                      Also, plans were being made for four
  Texas will be converted to a psychiatric hospital.
  of the closed facilities to reopen as acute care hospitals.

  FOLLOW-W         STUDY

  The OIG is gathering data on actions that rural communities can take to maintain access
                                                   The study will identify and describe a
  to medical care in the face of hospital closure.
  variety of initiatives local communities have developed and implemented to maintain or
  even improve access to health care services after a hospital has closed.

   A report summarizing the successful initiatives to meet health care needs after a hospital
   closes will provide useful models other communities could emulate when faced with the
   same problem.

   SUMMARy

   Fifty-seven hospitals closed in 1991, one more than in the previous year. Their
   characteristics were very similar to hospitals that closed in 1987, 1988, 1989 and 1990:
   Most hospitals that closed in 1991 were small and had low occupancy. When a hospital
   closed, few patients were affected. Although residents of a few communities had to
   travel greater distances for hospital care, most had emergency and inpatient medical care
   available within 20 miles of the closed hospital.


                                                   10

                                                                                                    ——
                                      ENDNOTES


1.	   Hospital occupancy rate is defined as the actual number of patient days divided by
      the total bed days available. National occupancy rate is defined as the sum of all
      hospitals’ occupancy rates, divided by the number of hospitals.

2.    Average Medicare utilization of closed rural and urban hospitals is defined as the
      percent of Medicare patient days compared to the total patient days for each
      hospital, summed anddivided bythenumber        of hospitals. National average
      Medicare utilization is the percent of Medicare utilization of each hospital,
      summed and divided by the total number of hospitals.

3.    Medicaid utilization is calculated in the same way as Medicare utilization.




                                            11

                                APPENDIX                 A�

METHODOLOGY

Extentof Hqpital   Closure

To determine how many hospitals closed in 1991, we surveyed State licensing and
certification agencies, State hospital associations and State health planning agencies. We
also compiled Health Care Financing Administration (HCFA) data on terminated
providers in 1991. When a closed hospital met the study’s definition or when there were
questions, we contacted officials associated with the closed hospitals, officials associated
with hospitals nearest to the closed hospital and local public officials.

To determine the number of hospitals in the United States, we used the Hospital Cost
Report Information System (HCRIS) maintained by HCFA. We included only general,
short-term, acute care hospitals under Medicare’s Prospective Payment System (PPS) in
the universe. There were 5,334 hospitals listed on HCRIS as short-term, acute care,
general hospitals for the seventh year of PPS (PPS 7).

Characttitics   of H~ital     Closure

To analyze characteristics of closed hospitals, we used HCFA’S HCRIS data. We used
the latest pre-closure cost reports. For example, if a hospital closed in May 1991 and its
accounting year was on a January-December cycle, we used the provider’s January 1,
1990 to December 31, 1990 report.

Impact of Hqital    Closure

We limited our “impact” analysis to the distance from a closed hospital to the nearest

still-operating hospitals and to emergency services. We obtained data for our analysis

from interviews with the following sources


 b      Former hospital administrators, board members, and/or staff of closed hospitals

 b      Hospital administrators and/or staff at the nearest hospitals

 b      Local police and health officials

 k      Local government officials

 b      State health planning agencies

 b      State certification and licensing agencies

 b      State hospital associations





                                             A -1

APPENDIX    B




      B-1
                                                                                            I


                                                                         lurall
                                                                State    Urban
                                          City
lspital Name                                                    AL       rural
                                          ~nterprise                     urban
[erprise Hospital                         ~iedmont              AL
                                                                AR       rural
dmont Hospital and Nursing Home           :Orning
                                                                CA       urban
rning Community Hospital
                 Perns
                                                                CA        urban
ristian Hospital Medical Center
          ~ng    Beach
                                                                CA        urban
~mingquez Medical Center
                 LOSAngeles
                                                                CA        urban
Ida Vista Community Hospital
             San Diego

                                                                 CA       urban
n Diego General Hospital
                 Woodland

                                                                 co       rural
)1o General Hospital
                     morence

                                                                 DC        urban
. Joseph Hospital
                         Washington

                                                                 FL        urban
~pitol Hill Hospital
                      Hollywood

                                                                 GA        rural
umana Hospital-South Broward
              Buena Vista

                                                                  IA       rural
[arion Memorial Hospital
                  Monticello

                                                                  IL       urban
]hn McDonald Hospital
                     Chicago

                                                                  IL        urban
akeside Community Hospital
                Chicago

                                                                  Ks        rural
lartha Washington Hospital
                Attica

                                                                   Ks       rural
dtica District Hospital One
               Baxter Springs

                                                                   KS       rural
kixter Memorial Hospital
                   Emporia

                                                                   KY	       rural
t. Mary’s Health Center                     Liberty
                         urban
;asey County War Memorial Hospital          Worcester
                       urban
Worcester Health and Hospital Authority     Baltimore

                                                                  MI          urban
-Iomewood Hospital Center South             Detroit

                                                                  MI          rural
~outhwest Detroit Hospital                   Edmore

                                                                  MN          rural
h-i-County Community Hospital                Greenbush

                                                                  MN          rural
Greenbush Community Hospital                 Heron Lake

                                                                  MN           rural
Heron Lake Municipal Hospital                Mountain Lake

                                                                  MN           rural
Mountain Lake Community Hospital             parkers prairie

                                                                   MN          rural
Parkers Prairie District Hospital            Trimont

                                                                   MN           rural
Trimont Community Hospital                    Milica
 Fairview Milica Hospital                                          MO           rural
                                              Lochood
                                                                   MO           rural

 Dade County Memorial Hospital                Mansfield
 Mercy Hospital                                                    MO            rural

                                              Chaffee                            rural

 Chaffee General Hospital                     Sweet Springs         MO
                                                                    MS           rural

  Community Hospital                          Pittsboro
                                                                                  urban

  Community Hospital of Calhoun County         Jackson            I MS        I
1Doctors Hospital




                                                 c-1
                                                                                           _—
                 1991HOSPITfi        CLOSURES   BY NAME AND LOCATION (emt.)
                                                                              Rural/
Hospital Name
                                    City
              State    Urban

Greene County Hospital
                           Leakesville
      MS        rural
Tunics County Hospital
                           Tunics
           MS        rural
Baldwyn Satellite Unit
                           Baldwyn
          MS	       rural
Prairie Community Hospital
                       Terg
                       rural
City Hospital
                                    New Rockford
               rural
Golden Valley County Hospital
                    Beach
             ND       rural
St. Gerard’s Community Hospital
                  Hankinson
         ND       rural
Fullerton Memorial Hospital
                      Fullerton
         NE       rural
Wewoka Memorial Hospital
                         Wewoka ‘
          OK        rural
Mercy Forest Glen Hospital
                       Canyonville
       OR        rural
Philipsburg State General Hospital                Philipsburg
       PA        urban
Divine Saviour Hospital                           York
              Sc        urban
Methodist Hospital                                Mitchell
          SD        rural
Forum Hospital Trenton                            Trenton
           TN        rural
 Caprock Hospital District                        Floydada
          Tx        rural
 Childress General Hospital                        Goldthwaite
      Tx        rural
 Community Hospital of Tyler                       Tyler
            Tx        urban
 Mesquite Physicians Hospital                      Mesquite
         Tx         urban
 Southwest Dallas Hospital                         Dallas
           TX         urban
 West Texas Hospital                               Lubbock
          Tx         urban
 Winter Garden Medical Center                      Dilley
           Tx         rural
 Lutheran General Hospital                         San Antonio
      Tx         urban




                                                   c-2
